SUPREME COURT OF THE UNITED STATES
NO. 20-1327
PDX NORTH, INC.,
v.

Petitioners,

ROBERT ASARO-ANGELO, IN HIS OFFICIAL CAPACITY AS COMMISSIONER OF
THE DEPARTMENT OF LABOR AND WORKFORCE DEVELOPMENT OF THE STATE
OF NEW JERSEY,
Respondent.
CERTIFICATE OF SERVICE
As required by Supreme Court Rule 29(5), I certify that on July 13,
2021, Respondent’s brief in opposition to certiorari was served on the
following, who consented to electronic service in accordance with this
Court’s April 15, 2020 General Order:
Corinne McCann Trainor, Esq.
Fox Rothschild LLP
Princeton Pike Corporate Center
997 Lenox Drive
Lawrenceville, NJ 08648-2311
ctrainor@foxrothschild.com

1

I further certify that on the same date, I filed Respondent’s brief in
opposition to certiorari through the Court’s electronic filing system, and
in accordance with this Court’s April 15, 2020 General Order, one copy of
Respondent’s brief was sent via UPS overnight mail to the following:
Mr. Scott S. Harris
Clerk of Court
Supreme Court of the United States
First Street, NE
Washington, DC 20543-0001
I declare under penalty of perjury that the forgoing is true and
correct.

Date: July 13, 2021

JEREMY M. FEIGENBAUM

2

